ATTORNEY GENERAL

STATE OF MONTANA

Tim Fox Department of Justice
Attorney General Joseph P. Mazurek Justice Bldg.
215 North Sanders
PO, Box 201401
Helena, MT 59620-1401

February 4, 2020

Mr. Danny Bickell

Deputy Clerk

Supreme Court of the United States
One First Street, NE

Washington, D.C. 20543

Re: National Association for Gun Rights v. Mangan, No. 19-767
Dear Mr. Bickell,

With the consent of Petitioners’ counsel, I am writing to request an extension to
March 27, 2020, in which to file a brief in opposition to the petition for certiorari
in this case. Rule 30(4). Respondent’s brief in opposition is currently due on
February 20, 2020.

The extension is necessary due to preexisting travel plans and because the
attorneys with principal responsibility for preparing the brief have been heavily
engaged in other litigation and administrative obligations. The State will work
diligently in preparing a draft of the brief in opposition, but needs additional
time to ensure sufficient review, input, and revision so that the issues presented
in the petition are fully addressed for the Court.

Thank you for your assistance.

Sincerely,

MATTHEW T. COCHENOUR
Acting Solicitor General
Counsel for Respondent

cc: David Warrington, Matthew Monforton, Counsel for Petitioner

TELEPHONE: (406) 444-2026 FAX: (406) 444-3549 E-MAIL: contactdoj@mtgov WEB: midoj.gov

MONTANA DEPARTMENT OF JUSTICE
Legal Services Division * Division of Criminal Investigation * Highway Patrol Division * Forensic Science Division
Gambling Control Division # Motor Vehicle Division * Information ‘Technology Services Division * Central Services Division
